NO.
_____________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2017
ERIC MALMSTROM,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101
(207) 871-0310
Attorney for Petitioner

October 1, 2020

TABLE OF CONTENTS
QUESTIONS PRESENTED…………………………………………………….…………………3
TABLE OF AUTHORITIES….……………………………………………………………………4
OPINION BELOW…………………………….….………………….………….…………………..5
JURISDICTION…...………………………………………………………………………………….6
STATEMENT OF THE FACTS…………………………………..……………….……………..7
REASON FOR GRANTING THE WRIT……..……………………………………………..12
CONCLUSION……………………………………………………………………………………….20
APPENDIX…………………………………………………………………………......................21
(Judgment of the First Circuit Court of Appeals, No. 19-1218, July 20, 2020).

2

QUESTION PRESENTED FOR REVIEW
Whether the district court abused its discretion when it failed to sua
sponte order a competency evaluation. The facts of Petitioner’s
crime, standing alone, gave rise to a reasonable cause to believe that
Petitioner may presently be suffering from mental disease or defect
rendering him mentally incompetent. In the present case, Petitioner
made over 300 hundred phone calls to the Swedish Embassy, and to a
consular employee, to whom he had no connection, repeating random
religious references, talking about an imaginary King Larrson and
King Larrson’s granddaughter, and threatening the employee and the
citizens of Sweden with sexualized violence using a sword. Such acts
plainly put the district court on notice that Petitioner might be
suffering from a mental disease rendering him mentally incompetent,
notwithstanding the fact that defense counsel did not raise the
competency issue

3

TABLE OF AUTHORITIES
CASES

PAGES

Drope v. Missouri, 420 U.S. 162 (1975)……………………………………..18, 21, 22, 24
Dusky v. United States, 362 U.S. 402 (1960)…………………………………………….30
Hernandez-Hernadez v. United States,
904 F.2d 758 (1st Cir. 1990)………………………………………………………………24
Johnson v. Norton, 249 F.3d 20 (1st Cir. 2001)…………………….17, 21, 22, 25, 27
Pate v. Robinson, 383 U.S. 375 (1966)…………………………….17, 18, 21, 25, 26, 27
Torres v. Prunty, 223 F.3d 1103 (9th Cir. 2000)…………………………………..22, 26
United States v. Ahrendt, 560 F.3d 69 (1st Cir. 2009)………………………………..17
United States v. Brown, 669 F.3d 10 (1st Cir. 2012)…..……………………24, 26, 27
United States v. Giron-Reyes, 234 F.3d 78 (1st Cir. 2000)………………………….24
United States v. Lebron, 76 F.3d 29 (1st Cir. 1996)…………………………………….27
United States v. Maryea, 704 F.3d 55 (1st Cir. 2013)………………………..16, 26, 27
United States v. Muriel-Cruz, 412 F.3d 9 (1stCir. 2005)……………………….......24
United States v. Sanchez-Ramirez, 570 F.3d. 75 (1st Cir. 2009)…………………16
Treatise and Statutes
18 U.S.C. § 4241(a)……………………………………………………………………….17, 21, 24

4

NO.
_____________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ERIC MALMSTROM,
PETITIONER
V.
UNITED STATES OF AMERICA,
RESPONDENT

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_____________________________________________________
The Petitioner, Eric Malmstrom, respectfully prays that a writ of certiorari
issue to review the judgment of the United States Court of Appeals for the First
Circuit entered on July 20, 2020.
OPINION BELOW
On July 20, 2020, the Court of Appeals entered its Opinion affirming the
Petitioner’s conviction and sentence. Judgment is attached at Appendix 1.

5

JURISDICTION
On July 20, 2020, the United States Court of Appeals for the First Circuit
entered its Opinion affirming Petitioner’s conviction and sentence.
Jurisdiction of this Court is invoked under 28 U.S.C. § 1254 (1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitutional Amendment V:
No person shall…be deprived of life, liberty, or property without due
process of law…

6

STATEMENT OF THE FACTS
This is a Petition for Certiorari following a conviction after trial in docket
number 19-1218, to three counts of Transmitting Threatening Interstate
Communications, 18 U.S.C.§ 875(c). Petitioner was charged in a four-count
indictment, returned on April 13, 2018. (D.E. at 3, No. 20). At the start of
trial on August 27, 2018, the government dismissed count two of the
indictment. (D.E. at 7, No. 76).
On August 27, 2018, Petitioner was convicted after trial of counts one,
three and four of the indictment. (D.E. at 7, No. 86).
Introduction
On March 9, 2018, United States Secret Service Special Agents
arrested Petitioner at his sister’s residence in Sanford Maine. Petitioner was
arrested for making threatening calls to the Swedish Embassy in
Washington, D.C. (Revised Presentence Investigation Report at 3, para. 1, 4
(hereinafter “RPSR at__”)). The government alleged that over a six month
period, Petitioner made hundreds of calls to the embassy, many to a
consular employee of the embassy, Zandra Bergstedt, whom Petitioner did
not know personally, threatening violence against various actual and
fictional people, including the employee, Zandra Bergstedt (RPSR at 3-4,
Sealed Appendix at 3-4).

7

On April 13, 2018 the grand jury returned a four-count indictment
charging Petitioner with Transmitting Threatening Communications.
(RPSR at 3, para 2, Sealed Appendix at 3).
The Complaint
The complaint in the present case alleged that Petitioner called the
Swedish Embassy hundreds of times over a period from the end of
September 2017 to the beginning of March 2018. (Affidavit in Support of
Criminal Complaint, 3/9/18 at 1, [hereinafter, “Affidavit at __”]). Many of
the calls were made after business hours and were logged and recorded.
The complaint alleged that Petitioner threatened among other threats, “I
am going to shove a knife up everyone’s daughter’s cunts, because they are
all bitches and cunts.”, “Do you know how to take a girls virginity? You
shove a knife right up her cunt. I’ll blow all your fucking heads off, watch.”,
“For all the pain you fucking Swedes caused me, I want to stab you all so
fucking hard you die.” (Affidavit at 2, para 7).
The government alleged that in October 2017, Petitioner began
threatening an embassy employee in the consular section. The Petitioner
left 166 voice messages in a one-week period while the employee was out of
the office. (Affidavit at 3, para 11). The government alleged Petitioner
threatened to slit the victim’s throat and the throat of her “two beautiful

8

boys”. (Affidavit at 4, para 15). “All I want to do is slit her throat and watch
her blood poor out.” Petitioner threatened to slit her throat and dump her
body in the river outside her office” (Affidavit at 4, para 18). Petitioner did
not know the victim.
The Magistrate judge reviewed the complaint and Agent Fasulo’s
affidavit at Petitioner’s Initial Appearance. (Initial Appearance 3/12/18 at
5).
Motion Hearing
On August 12, 2018, the government filed a Motion in Limine. The
government sought to introduce evidence of Petitioner placing “hundreds”
of harassing and threatening phone calls to the Swedish Embassy’s main
line and to an individual consular employee, between September 2017 and
March 2018. (D.E. at 6, No. 64, Motion in Limine, 8/12/18 at 4
[hereinafter “Motion in Limine at__”]). The government also sought to
introduce evidence that Petitioner continued to call the consular employee
after his arrest, placing multiple calls to the employee’s voice mail from the
Strafford County Correctional Facility. (Motion in Limine at 6).
On August 24, 2018, at a hearing on the Motion in Limine, the
government informed the court that over 60 voice messages from Petitioner
were recorded and saved by the Swedish Embassy. (Motion Hearing,

9

8/24/18, at 3, 4). The government sought to introduce six of those voice
messages at trial. (Motion Hearing, 8/24/18 at 4, Gov’t Ex. 1, at 38). The
government provided the court with a transcript of the audio recordings it
sought to introduce. The transcript was as follows:
1). Yeah, this is Eric Emmanuel Malmstrom of Vinalhaven, Maine.
Continuously messing with me and causing me hate and discontent
and problems is only going to agitate me and provoke me. That is why
I prefer a knife or sword up your cunt.
2). Yeah, this is Eric Emmanuel Malmstrom. Is this, uh, your idea of a
joke to keep continuously harassing me and threatening me? I don’t
appreciate that. I really don’t. But I’ll tell you, when I get to Sweden,
Sweden’s gonna run my way. Ok? You understand that? Islam?
3). …Emmanuel Malmstrom from Vinalhaven, Maine again. You
done threatening me, or do I have to rip your fucking fallopian tubes
out? You fucking cunt.
4.) [Words in Swedish precede voicemail message]
Hello, uh, this is Eric Emmanuel Malmstrom from Vinalhaven,
Maine. Just calling to see how the Swedish government’s doing, and
this is my nephew standing here, say hi Dymond. This is Dymond
Malmstrom [another voice: Helllo…hi] Yeah, so we’re on Vinalhaven,
Maine. It’s off the coast of Maine. 15 miles out from Rockland.
[automated voice: To delete this message…]
5). Yeah, this is Eric Emmanuel Malmstrom. I’m in Sandford Maine,
I’m going to head down to my cousin’s John Freeman. That’s my
cousin. He’s got one eye. Lost it.
[Automated voice: March 8th, at 12:18 p.m. To delete this…]
6). This is Eric Emmanuel Malmstrom, in Sandford Maine. I just
came back from my cousin’s apartment, John Freeman. Know this
much. I believe in Sharia law. Sharia law says that I have every right
to shove a knife in King Larrson’s granddaughter’s fucking cunt and
slit her fucking throat. And that’s coming from a king.

10

[Automated voice: March 8th at 9:17 p.m. To delete…]
(Government’s Exhibit 1)
The court asked the government if King Larrson was a current or past
King of Sweden. The government responded “I don’t believe it’s the current
king, Your honor. I frankly don’t know, to be honest with you.” Defense
counsel responded, “I don’t know if it is an actual or historic reference or if
that’s someone’s idea of history speaking.” (Motion Hearing, 8/24/18 at 6).
The court also asked, “So the victim is not the granddaughter of a king?”
“Does either of you know what the reference relates to?” The government
responded:
Your Honor, it’s a fairly – it’s a – it comes up frequently in the calls
Mr. Malmstrom allegedly made. And I don’t know what the genesis of
it is, but he comes back to this referencing King Larsson and King
Larsson’s granddaughter on many occasions.” (Motion Hearing,
8/24/18 at 7, Transcript of Voice Messages at 1, para 4, at 2, para. 29,
at 3, para 39, at 4, para. 42, 45, at 5, para 63, Appendix at 40, 79, 80,
81, 82, 83).
The court redacted two of the voice messages, striking references to
Sharia law and Islam. The court ruled the recorded voice messages were
admissible as redacted. The court took no other action in relation to the
voice messages. (Motion Hearing,8/24/18 at 6-8, at 39, 41).
The Trial
On September 1, 2017, the Swedish Embassy in Washington D.C.
began receiving threatening telephone calls to its main number. (Trial,

11

8/27/18 at 130, [hereinafter “Trial at__”]). The caller identified himself as
“Eric Emmanuel Malmstrom, from Vinalhaven, Maine” (Trial at 33).
Beginning on October 15, 2017, the caller began making threatening calls to
the direct line of a consular employee, Zandra Bergstedt. (Trial at 131). Ms.
Bergstadt had never met, and in fact did not know, a Mr. Eric Malmstrom.
(Trial at 47). The calls were made from a telephone number registered to
Randal Farnham residing in Vinalhaven Maine. (Trial at 128, Appendix at
66). Petitioner, Erik Malmstrom resided with his sister and her husband,
Virginia and Randall Farnham at their house in Vinalhaven Maine. (Trial at
58). Sometimes Ms. Bergstadt spoke to the caller directly and sometimes
he would leave messages. (Trial at 34). In some of the calls the caller would
threaten Ms. Bergstadt directly saying, “he would slit my cunt, that he
would rape me, that he would slit my throat.’ Sometimes the caller would
“ramble on about things” He would speak generally about Swedish people,
about a king, or about political figures in the United States. “It wouldn’t
make total sense to me what he would say.” (Trial at 36).
At some point in the fall of 2017, as the call volume increased, agents
from the State Department requested Robert Potter, a sheriff’s deputy with
the Knox County Sheriff’s Department, assigned to Vinalhaven Island, to
conduct a well-being check on Mr. Malmstrom. (Trial at 59). After the well-

12

being check, Ms. Bergstadt received angry messages and telephone calls in
which the caller accused Ms. Bergstadt of harassing him and getting him in
trouble with his sister. (Trial at 38).
In February 2018, Ms. Bergstadt went on vacation. During her
absence, the caller left over a hundred voice mail messages for Ms.
Bergstadt. (Trial at 39). When Ms. Bergstadt returned to work the tone of
the telephone calls changed and became personal. (Trial at 39). The caller
threatened her children and referenced her partner, as well as wanting to
physically harm Ms. Bergstadt. “He seemed very upset that he hadn’t been
able to reach me during the week I was gone.” (Trial at 39).
On March 5, 2018, the caller telephoned to say that he was coming to
Washington DC. He stated he was taking the ferryboat at a specific time
and traveling south. He stated he was going to slit Ms. Bergstadt’s throat
and her two children were going to watch and that he was going to dump
her body in the river. (Trial at 40-41, 43-44). On March 6, 2018, the caller
called from a different number, a number in Sanford Maine. At times the
caller was “almost apologetic that it was going to take him longer to come to
Washington then he planned.” (Trial at 42). Between March 5th and March
9th, the caller made 21 calls to Ms Bergstadt from the Sanford Maine
number. (Trial at 137). Because it was clear from the telephone calls that

13

the caller was traveling south, Ms. Bergstadt assumed the caller was in fact
traveling to DC. (Trial at 44). Based on these calls, law enforcement agents
in DC moved to arrest Petitioner. (108). On March 9, 2018, Petitioner Eric
Malmstrom was arrested in Sanford Maine, at the house of his sister, Anita
Malmstrom. (Trial at 113). Petitioner traveled to Sanford from Vinalhaven
with his brother in law and sister, Randall and Virginia Farnham. (Trial at
84) The Farnham’s took Petitioner to Sanford Maine because they were
planning a weekend at Foxwood’s Casino in Connecticut and they could not
leave Petitioner alone in Vinalhaven. All three arrived at Petitioner’s sister
Anita’s house, on March 5, 2018. The Farnham’s stayed overnight and then
drove to Connecticut on March 6th. (Trial at 85, 101). Petitioner stayed in
Sanford Maine with his sister, Anita, while his other sister and her husband
visited Foxwood’s casino. The Farnham’s returned to Sanford on March 9,
2019. That evening, Secret Service agents arrested Petitioner at Anita’s
house in Sanford. (Trial at 88, 107).
Petitioner was arrested and housed at the Stafford County Jail in
Maine. (Trial at 119). In late April Ms. Bergstadt received six voicemails
from an inmate at the Stafford County jail. She did not accept the calls. The
inmate used Petitioner’s booking number and telephone identification
number to make the call. (Trial at 121).

14

In total the caller made 121 calls to the main number of the Swedish
Embassy, and 187 calls to Ms. Bergstadt’s direct line. (Trial at 130, 131).
Sixty-three of the calls were recorded on voicemail. The government
introduced six of these recorded calls at trial. (Trial at 62). Deputy Sheriff
Robert Potter and Petitioner’s brother in law, Randall Farnham, identified
the voice on the recordings as Petitioner’s voice. (Trial at 61, 90).
Sentencing
The court sentenced Petitioner to 27-month term of imprisonment,
and three years of supervised release, with special conditions, on each of
counts, one, three and four to be served concurrently. (Sentencing at 61). 1
Appeals Court Decision
The First Circuit Court of Appeals affirmed Petitioner’s sentence. The
Court held; the district court did not have reasonable cause to believe that a
substantial question existed concerning Petitioner’s competency to stand
trial. (United States v. Eric Malmstrom , Docket No. 19-1218, July 20,
2020)

Petitioner was due to be released from BOP custody on February 5,
2020, at the completion of his sentence. However, Petitioner has not
been released. The BOP has petitioned the Federal District Court in
Minnesota for civil commitment of Petitioner under 18 U.S.C. § 4246
“Hospitalization of a Person due for release but suffering from mental
disease or defect”.
1

15

REASON FOR GRANTING THE WRIT
Conviction of a person legally incompetent to stand trial
violates due process. The district court abused its discretion
and violated Petitioner’s due process rights when it failed to
sua sponte order a competency evaluation. The facts of
Petitioner’s crime, standing alone, gave rise to a reasonable
cause to believe that Petitioner may presently be suffering
from mental disease or defect rendering him mentally
incompetent. In the present case, Petitioner made over 300
hundred phone calls to the Swedish Embassy, and to a
consular employee, to whom he had no connection,
repeating random religious references, talking about an
imaginary King Larrson and King Larrson’s granddaughter,
threatening the employee and the citizens of Sweden with
sexualized violence using a sword. Such acts plainly put the
district court on notice that Petitioner might be suffering
from a mental disease rendering him mentally
incompetent, notwithstanding the fact that defense counsel
did not raise the competency issue.
Standard of Review
Petitioner alleges the district court abused its discretion by not sua
sponte ordering a competency hearing. The First Circuit “reviews a district
court’s decision not to hold a competency hearing or order a psychiatric
examination for abuse of discretion”. United States v. Maryea, 704 F.3d 55,
69 (1st Circuit 2013), United States v. Sanchez-Ramirez, 570 F.3d. 75, 80
(1st Cir.2009) The First Circuit will affirm the district court’s decision if
there was a sufficient evidentiary basis to support its decision. Id. A

16

Petitioner cannot waive his right to the court’s duty to sua sponte inquire
into Petitioner’s competency. Pate v. Robinson, 383 U.S. 375, 378, (1966)
(Counsel’s failure to request a hearing does not “waive” defendant’s right to
have the court determine his capacity to stand trial), Johnson v. Norton,
249 F.3d 20, 27 (1st Cir. 2001) (counsel’s failure to request a competency
hearing is irrelevant, “such a request is not germane to the present
question, namely, whether the court was required to make the decision on
its own.”)
Argument
The conviction of a person legally incompetent to stand trial violates
due process. Pate v. Robinson, 383 U.S. 375, 378, (1966). A district court
must sua sponte order a competency hearing if there is reasonable cause to
believe that a defendant may presently be suffering from a mental disease
or defect rendering him mentally incompetent. 18 U.S.C. § 4241(a)
(emphasis added). The test for competency is whether the defendant has
sufficient present ability to consult with counsel with a reasonable degree of
rational understanding, and whether defendant has a rational and factual
understanding of the proceedings against him. United States v. Ahrendt,
560 F.3d 69, 74 (1st Cir. 2009). “Evidence of a defendant’s irrational
behavior, his demeanor at trial, and any prior medical opinion on

17

competence to stand trial are all relevant in determining whether further
inquiry is required, but even one of these factors standing alone may in
some circumstances, be sufficient.” Drope v. Missouri, 420 U.S. 162, 180
(1975) In the present case, the facts of the crime as alleged by the
government gave the court reasonable cause to believe that Petitioner may
presently be suffering from a mental disease which would render him
mentally incompetent. Petitioner made over 300 telephone calls to the
Swedish Embassy, with over a hundred of them to a consular employee to
whom he had absolutely no connection. Many of the calls threatened
sexualized violence. He repeatedly referred to an imaginary King and his
imaginary granddaughter, many of his calls were nonsensical, and many
contained random religious references. These facts show that the crime
alleged was the crime of a mentally ill person who was divorced from
reality. Petitioner’s irrational behavior, standing alone, provided the court
with reasonable cause to believe that Petitioner may suffer from a mental
illness which would render him incompetent. Pate v. Robinson, 383 U.S. at
386 (defendant’s uncontradicted “history of pronounced irrational
behavior” enough to mandate a hearing, despite trial court’s colloquies with
defendant, defendant’s demeanor at trial and psychiatrist’s opinion that
defendant could assist in his defense), Drope v. Missouri, 420 U.S. 302

18

(1975) (even one factor standing alone may be sufficient to require further
inquiry on the question of a defendant’s competence). Therefore, the court
abused its discretion when it failed to sua sponte order a psychiatric
examination or a competency hearing. 2
At the very inception of this case, the government’s charge against
Petitioner made it obvious that Petitioner’s irrational behavior required the
district court to inquire further into Petitioner’s competence to stand trial.
The complaint in this case alleged that over a six-month period Petitioner
made hundreds of telephone calls to the Swedish Embassy. Affidavit at 1,
para 5). Petitioner left voice messages threatening to “shove a knife up
everyone’s daughter’s cunts”, on the main number of the embassy.
(Affidavit at 2, para 6). More importantly, Petitioner repeatedly threatened
a consular employee with whom he had absolutely no prior connection.
The complaint alleged that in a one-week period Petitioner left 166 voice
messages on the employee’s telephone. (Affidavit at 3, para 11). The
complaint alleged Petitioner identified himself by his full name in each
telephone call. (Affidavit at 3, para 10, Appendix at 16). Petitioner

Defense counsel requested funds for a psychological evaluation after
the Pretrial Service Report was prepared because Probation stated it
would consider pretrial release if Petitioner was evaluated, received a
diagnosis and a medical regime was established. No written or oral
psychological evaluation was ever made part of the record.
2

19

threatened to slit the employee’s throat and that of her children. (Affidavit
at 4)
By the time of the August 24, 2018, hearing on the government’s
Motion in Limine, the court was aware that Petitioner had left over 60 voice
messages, which had been recorded and saved by embassy officials. 3
(Conference of Counsel, 8/13/18 at 3-4). The court was aware that
Petitioner frequently referenced and threatened an imaginary King Larsson
and King Larrson’s imaginary granddaughter. (Motion Hearing, 8/24/18 at
7). The court was also aware that Petitioner had no connection to the
victim. (Motion Hearing, 8/24/18 at 7). The court also knew that
Petitioner’s voice messages were sprinkled with random, nonsensical
religious references to Sharia law and Islam. “But I’ll tell you, when I get to
Sweden, Sweden is going to run my way. Ok? You understand that?
Islam?” (Govt’s Ex. 1). “This is Eric Emmanuel Malmstrom, in Sanford
Maine. I just came back from my cousin’s apartment, John Freeman. Know
this much. I believe in Sharia law. Sharia law says that I have every fucking
(Preliminary Examination and Detention Hearing, 3/15/18 at 8,
Appendix at33).
3 In its Motion in Limine the government informed the court that
Defendant had made hundreds of phone calls and left many voice
messages. (D.E. at 6, No. 64, Motion in Limine, 8/12/18). In the
motion, the government stated it was seeking to introduce evidence of
the calls. In the end the government sought to introduce six of the
voice messages.
20

right to shove a knife in King Larrson’s granddaughter’s fucking cunt and
slit her fucking throat. And that’s coming from a king”. (Gov’t Ex 1)
This behavior clearly indicates Petitioner was divorced from reality.
Petitioner’s irrational behavior standing alone gave the district court
reasonable cause to believe Petitioner might be incompetent. 4 Pate, 383
U.S. at 385 (uncontradicted testimony of defendant’s “history of
pronounced irrational behavior” sufficient to require court to hold a
competency hearing, despite defendant’s mental alertness and
understanding displayed in ‘colloquies’ with the court.), Drope, 420 U.S. at
180 (possible factors for judge to consider are a “defendant’s irrational
behavior, his demeanor at trial, and any prior medical opinion on
competence to stand trial. but even one of these factors standing alone

The First Circuit sometime restates the threshold for the court to
hold a sua sponte a competency hearing as “whenever evidence raises
a sufficient doubt as to the competency of the accused”. Johnson v.
Norton, 249, F3d 20, 26 (1st Cir.2001. The statutory standard
however, is “reasonable cause to believe that a defendant may
presently be suffering from a mental disease or defect rendering him
mentally incompetent” 18 U.S.C. 4241(a) (emphasis added). The
statutory standard makes is unnecessary to determine the “quantum
of doubt” required to prompt a hearing Id. And it underlines the fact
that the court needs only reasonable cause to believe that defendant
may be suffering a mental illness that renders him incompetent, not
reasonable cause to believe defendant is suffering from an illness that
renders him incompetent.
4

21

maybe enough), Torres v. Prunty, 223 F.3d 1103 (9th Cir.2000) (court
erred in failing to order competency hearing sua sponte where defendant
shot three physicians and kidnapped a fourth and a nurse because he
believed he was the victim of a medical conspiracy during which doctors
injected him with Aids virus and falsified his medical records).
It is true that in many cases there are often “no fixed and immutable
signs” which indicate the need for further inquiry and the “question is often
a difficult one in which a wide range of manifestations and subtle nuances
are implicated.” Drope, 420 U.S. at 180, Johnson, 249 F.3d at 27. In the
present case, however, there is nothing subtle or nuanced about the signs of
Petitioner’s mental illness. A mental illness which unquestionably gave the
district court reasonable cause to believe Petitioner may not be competent.
In fact, both the prosecutor and defense counsel were united in the opinion
that that the crime undoubtedly showed Petitioner suffered from a mental
illness. At Sentencing the prosecutor repeatedly opined “I think it is
abundantly clear that mental health is an issue in this case” and
“particularly when mental health is - - is shouting out at us as being an
issue, as it is in this case, I think the Court has an obligation to take a look
at mental health” and “ the conduct in this case just strongly indicates that
mental health is - - is a factor here” (Sentencing at 29, 30, 43, Appendix at

22

72, 73, 75). Defense counsel commented multiple times, “I think it would
be a logical inference for many people to say whoever made those calls has
mental illness. (Conference of Counsel, 8/13/18 at 4, Sealed Appendix at
31), “I understand why the Government thinks that mental health is at the
core of this proceeding, but I don’t think it has been raised in any formal
way.”, and “it is more likely that someone with mental illness would make
the calls of the character that [are] in this case.” (Conference of Counsel,
8/13/18 at 3, Appendix at 31). Thus, both the general acknowledgement of
Petitioner’s mental illness, and the quality of that mental illness (which
showed Petitioner was not in touch with reality), made it was unreasonable
for the court to not inquire further into whether Petitioner may have been
suffering from a mental disease or defect rendering him mentally
incompetent.
The government will argue based on defense counsel’s failure to raise
the competency issue, that the court is entitled to assume Petitioner was
competent. 5 Although it is true that defense counsel has a “unique vantage
It is true that, counsel twice stated that “So far as I am aware there’s
no issue with my ability to communicate with him” (Motion Hearing,
5/17/18, at 5, 13, Sealed Appendix at 25, 27). However, at a later
hearing defense counsel stated, “I’m a little concerned about his level
of understanding.” (Motion Hearing, 8/1/18 at 24, Sealed Appendix
at 29). Moreover, defense counsel repeatedly argued, “My client
doesn’t see himself as mentally ill and he thinks it’s a bad thing.”
(Conference of counsel, 8/13/18 at 12, Sealed Appendix at 33) and “I
5

23

for observing whether her client is competent”, United States v. MurielCruz, 412 F.3d 9, 13 (1st Cir. 2005), the fact that counsel did not raise any
concerns, does not relieve the court of its independent obligation to inquire
into Petitioner’s competency based on the overwhelming evidence of
Petitioner’s mental illness evinced by the facts of the crime. Congress
placed an independent duty on the court to raise the issue because it is the
court’s duty to protect the integrity of the proceedings. This is a mandatory
duty. United States v. Giron-Reyes, 234 F.3d 78, 80 (1st cir.2000) (Section
4241(a) imposes a duty on the court), Hernandez-Hernadez v. United
States, 904 F.2d 758, 760 (1st Cir. 1990) (A court is required to hold a
competency hearing sua sponte whenever there is reasonable cause…”),
United States v. Brown, 669 F.3d 10, 17 (1st Cir. 2012) (A district court
must sua sponte order a competency hearing if there is reasonable cause to
believe that a defendant is mentally incompetent). The fact that defense
counsel did not raise the issue does not excuse the court from sua sponte
raising the issue where evidence strongly suggests Petitioner may be
incompetent.6 Drope, 429 U.S. at 173 (Defendant’s irrational behavior was
would object vigorously to any evidence of mental illness being
admitted at trial against Mr. Malmstrom. (Conference of Counsel,
8/13/18, at 3, Sealed Appendix at 31)
Counsel also filed three separate motions to withdraw on May 17,
August 1 and December 17, 2018. Two of the motions were based on
6

24

sufficient to require further inquiry notwithstanding defendant’s demeanor
at trial and the stipulated opinion of the psychiatrist that defendant was
competent).
The government will also argue that the district court interacted
multiple times with Petitioner and nothing in those interactions made the
court question Petitioner’s competency.7 It is immaterial that the court’s
limited interactions with Petitioner did not also flag the issue of
competency because here the facts of the crime standing alone were
sufficient to create a reasonable belief that Petitioner may suffer from
mental illness which would render him incompetent. Pate, 383 U.S. at 38586 (While defendant’s demeanor at trial might be relevant to the ultimate
decision as to [competency], it cannot be relied upon to dispense with a
hearing on that very issue.”), Johnson, 249 F.3d at 28 (factors favoring a
finding of competency do not justify ignoring uncontroverted evidence to

counsel’s inability to communicate with his client and one based on
Defendant’s request that he be represented by a Muslim lawyer who
practiced Islam because “…they’re very devout, they do things in a
certain - - to kind of ceremonial circumference way that’s really
unique”. (Motion Hearing, 5/17/18 at 8, Sealed Appendix at 26).
Although at Defendant’s arraignment when the Magistrate Judge
asked Defendant if he was Eric Malmstrom. Defendant replied “I
would hope I am, your Honor. I’m wearing my glasses.”
(Arraignment, 4/25/18 at 4, Appendix at 35).
7

25

the contrary).8 Nor was there any record of evidence to suggest that
Petitioner’s mental illness was under control at the time of trial. In fact, the
record indicates that Petitioner was not taking any medication. United
States v. Maryea, 704 F.3d 55, 71 (1st Cir. 2013) (the court stopped the
proceedings and only continued them when defendant had received her
medication had been treated, and the court was convinced that she was
competent).
The remedy for the court’s failure to inquire into Petitioner’s
competence is to reverse Petitioner’s conviction and order a new trial. It is
an insufficient remedy for this Court to remand for the limited purpose of
holding a hearing on Petitioner’s competence at the time of his original
trial, particularly in this instance where there was no psychiatric evaluation
in the record. Pate, 383 U.S at 397 (retrospectively attempting to
determine defendant’s competency to stand trial presents difficulties.
Concurrent determination of competency and new trial discharges the
court’s constitutional obligation.), Drope, 420 U.S. at 183 (Petitioner’s due
It is important to recognize that Defendant is not challenging the
court’s finding of competency, which would shift the burden of proof
to Defendant to present facts sufficient “to positively, unequivocally
and clearly generate a real, substantial and legitimate doubt as to his
mental competence.” Brown, 669 F.3d 10, 17 (1st Cir. 2012). The issue
presented here is not whether he was competent, but whether he was
entitled to a hearing to determine his competence. Torres v. Prunty,
229 F.3d 1103, 1106 (9th Cir.2000).
8

26

process rights not adequately protected by remanding for a determination
of competence at the time of trial. Remedy is to reverse conviction and retry
petitioner.), Dusky v. United States, 362 U.S. 402 (1960) (remedy is to
remand the case to district court for a new hearing to ascertain defendant’s
present competency and for a new trial should defendant be found
competent).
The court’s failure to make such inquiry deprived Petitioner of his
constitutional right of a fair trial. Pate, 383 U.S. at 385, Conviction of an
accused person legally incompetent to stand trial violates due process. Id.,
United States v. Lebron, 76 F.3d 29, 31 (1st Cir. 1996), Johnson v. Norton,
249 F.3d at 26, United States v. Maryea, 704 F.3d 55, at 69 (1st Cir. 2013),
United States v. Brown, 669 F.3d 10, 17 (1st Cir. 2012) and this Court
should remand for a new trial.

27

CONCLUSION
For the above reasons, this Court should grant the Petition for a Writ
of Certiorari.
Dated at Portland, Maine this 1st day of October 2020.
___/s/Jane E. Lee____
Attorney for Petitioner
Jane Elizabeth Lee
44 Exchange Street
Suite 201
Portland, Maine 04101

28

APPENDIX

29

